                                     4201 WILSON BOULEVARD
                                    ARLINGTON, VIRGl$JlA 22230




       OFFICE OF
  INSPECTOR GENERAL




                                     p .-
MEMORANDUM
                                     y"     . '




Date:          March 3 1,2000

To:            File # I99100043

From:
                                                              .   >




Through:

Re:            Case Closeout-



        In October of 1999, we received information from the




campus police have been conducting this investigation since.
        On March 15,2000, we contacte                          inquire about the status of
this case. He notified us that the United                     ffice would not accept this
case because the equipment was not titled to the federal government. The
County Attorney's Office refused to accept the case because of sovereignty issues which
arose because the victim is the          nation. The         Nation court was unable to
accept the case because            not a          As a result of these jurisdictional
problems, no charges                 This case is closed.




         (703) 306-2100 OIG ~non~rnous Hotline (800) 428-2 189 http://www.nsf.gov/oig/oig
                              Electronic mail hotline: oig@nsf.gov
